     Costs for Better Management Decisions:
       CRA Versus Fully Distributed Costs




                          September 17, 2012




Sponsored by U.S. Postal Service Office of Inspector General
             Report Number: RARC-WP-12-016
U.S. Postal Service Office of Inspector General                                                     September 17, 2012
Costs for Better Management Decisions                                                                 RARC-WP-12-016



                   Costs for Better Management Decisions:
                   CRA Costs versus Fully Distributed Costs


                                                  Introduction

The Postal Service reports the cost of its products annually in its Cost and Revenue
Analysis (CRA) report. The costs included in this report are designed to represent
estimates of economic costs — costs that are caused by the provision of a product or
groups of products. A feature of economic costs is that the sum of product costs will not
equal total costs. Instead, there will be a residual “institutional” cost — costs that do not
vary with product volume and are not directly assignable to any products. 1

As discussed in the U.S. Postal Service Office of Inspector General’s paper A Primer on
Postal Costing Issues, 2 it has been suggested that the Postal Service could make better
management and pricing decisions if it were to use a fully distributed costing (FDC)
methodology to allocate all of its costs to products. 3 In order to shed light on this
subject, the Office of Inspector General asked Professor John C. Panzar, an economist
with expertise in postal costing, for his opinion on whether FDC would be a good tool to
use to evaluate the profitability of new initiatives. The following paper, Costs for Better
Management Decisions: CRA Costs versus Fully Distributed Costs, is the result of this
effort. We offer the following summary of the key points of Professor Panzar’s paper.

Professor Panzar’s analysis reveals that institutional costs, and therefore FDC, should
not be used to judge the profitability of new initiatives. Instead, profitability should be
evaluated based on the comparison of the revenue the new initiative will produce to the
incremental costs it adds. If the revenue exceeds the incremental costs, the initiative
should be offered on the market. Otherwise, the Postal Service is missing an
opportunity to earn more revenue.

Next, the author finds that employing Postal Service CRA costing methods provides a
close approximation of the cost of a new product, with a very small upward bias.
Professor Panzar provides a specific example of an initiative where a lower price is
offered to encourage additional volume. Multiplying the expected increase in volume by
the unit volume variable cost reported in the CRA slightly overstates the true cost
change, because it fails to take into account the existence of economies of scale (unit
costs decline as volume increases). While this overestimation of costs is likely small, the
use of FDC can lead to a serious distortion of the proper economic signal one needs to
select the best new initiative.
1
  An example of a source of institutional costs for the Postal Service is the cost associated with the carrier traversing
his route. The carrier will have to travel his entire route each delivery day regardless of volume.
2
  U.S. Postal Service Office of Inspector General, A Primer on Postal Costing Issues, Report No. RARC-WP-12-008,
March 20, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-12-008.pdf.
3
  Fully distributed costing (FDC) refers to the process of distributing all costs to products; there are numerous
methodologies that can be used to reach this goal.


                                                            1
U.S. Postal Service Office of Inspector General                                                September 17, 2012
Costs for Better Management Decisions                                                            RARC-WP-12-016


Professor Panzar also concludes that FDC should not be used when, due to resource
constraints, management needs to choose between two profitable initiatives. He
demonstrates that using FDC can lead to poor decisions, such as choosing to offer a
product with little contribution (profit) over a more profitable product. He proposes that if
some sort of guideline were needed to ensure that a new product would have a
significant profit, even a simple rule requiring a fixed dollar amount of contribution would
be a better guide as to which products to choose. 4

This paper should not be interpreted to mean that the Postal Service should not be
concerned with earning sufficient revenues to cover its institutional costs. This is a
laudable and necessary goal. Rather, this paper points out the potential problems the
Postal Service would incur if it were to use FDC to estimate the profitability of new
initiatives and make decisions about which products to bring to market. Using FDC
would create a conservative policy that would help the Postal Service to avoid bad
initiatives. However, it could rob the Postal Service of revenue opportunities at a time
when they are greatly needed.




4
  Dr. Panzar demonstrates that a fixed dollar threshold is preferred when each NSA requires the same
amount of the "scarce, un-priced limiting resource” such as management’s time and attention. However, if
the resource cost varied across NSAs there may be justification for using another type of rule, such as a
percentage threshold requirement. Regardless, any threshold policy should be flexible enough to include the
possibility that the Board of Governors may choose to waive any quantitative provision.


                                                         2
                           Costs	for	Better	Management	Decisions:		
                        Economic	Costs	versus	Fully	Distributed	Costs	

                                      John	C.	Panzar	
                                              	
                   University	of	Auckland	and	Northwestern	University	

1.	Introduction	

           Fully distributed costing (FDC) describes any of a class of processes through which all of

the costs of the enterprise are assigned, or allocated, to one or another of its products or services.

The concept is not controversial in and of itself.1 Rather, it is the ways the results of an FDC

analysis are used in decision-making that often give rise to controversy. The use of FDC has a

long history in utility rate-making. However, economists have severely criticized its use for

decades.2 And, its use in current regulatory practice has been greatly curtailed.3 The

shortcomings of FDC as a pricing methodology are well-known, and will not be repeated here.

Rather, this paper analyzes the use of FDC methodology for evaluating the profitability of new

projects or services such as negotiated service agreements (NSAs).4 As far as I can determine,


1
    In the literature, the terms distributed, allocated, assigned, and attributed are used almost interchangeably. I will
try to use the latter term only when referring to the specialized costing process used by the Postal Service.

2
    See Kahn (1970) for a detailed survey and critique.

3
    For example, Viscusi et al. (2005), the current leading regulation text, devotes only three pages to the discussion of
FDC.

4
    An NSA is a contractual agreement between the U.S. Postal Service and an individual company that provides
customized pricing incentives or other arrangements justified by a shift in the company’s mail operations (Source:
https://www.usps.com/nationalpremieraccounts/nsa/welcome.htm). The use of the term in this paper should not be
taken to reflect a detailed analysis of the specific costing procedures employed by the Postal Service for the

                                                              1
this topic has not been studied in the economics literature. My analysis of FDC takes place in

the context of cost measurement and attribution processes used by the Postal Service.


         I have three primary findings. First, when evaluating the profitability of a new

undertaking such as an NSA, the appropriate comparison is between the project’s incremental

revenues and the incremental costs associated with the expected volume changes. Allocations of

overhead or institutional costs play no role. Second, the cost attribution methodology used by

the Postal Service and embodied in the Cost and Revenue Analysis (CRA) report routinely

produces estimates of volume variable costs. These can be used to generate reasonably accurate

(but conservative) approximations of the theoretically correct incremental cost values. Third,

fully distributed costs are always above the relevant incremental costs, so it might be argued that

their use could provide a built-in “margin for error” for the evaluation process. However, my

analysis shows that using FDC to create such a extra margin, or “contribution hurdle,” is clearly

inferior to using a hurdle based upon a fixed dollar amount. Indeed, I present a simple example

that illustrates the likelihood that the use of FDC in evaluating NSAs will lead to biased

selections of projects.


         The paper is organized as follows. Section 2 briefly presents an overview of the theory

of multiproduct cost functions. The discussion builds upon a careful definition of the cost of an

increment of output. Section 3 provides a general definition of cost allocation processes. It also

presents simple examples useful for the analysis. Section 4 describes the Postal Service’s

costing methodology as implemented in the CRA. Section 5 demonstrates that incremental



evaluation of any given NSA, but rather as a term describing a way the Postal Service can make a change in the
service and price available to a specific customer.


                                                        2
costs are the theoretically correct basis for evaluating NSAs or other new offerings. It also

illustrates the extent to which CRA and FDC-based estimates overstate the costs of such projects.

Section 6 analyzes situations in which there are “opportunity costs” associated with

implementing an NSA, so that not all profitable NSAs can be implemented. I show that, in this

case, a “profit hurdle” may be desirable. However, the built-in hurdle created by the use of FDC

may lead to selection bias. Section 7 restates my main findings.



2.	Multiproduct	Cost	Functions	

           To an economist, there is a causal relationship between the quantities of various

economic goods and services provided and the expenditures incurred by the entity producing

those goods and services. In economic textbooks, this relationship is usually defined as the

solution to an explicit optimization problem: i.e., it is assumed that the amount of inputs chosen

by the firm, x = (x1, x2, …, xm), are chosen so as to minimize the total expenditures required to

produce a vector of specified output levels, q = (q1,q2, …,qn).5 However, for purposes of the

present discussion, it is only necessary that there exists a relatively stable relationship between

inputs, outputs, and factor prices so that one can assume that there exists a multiproduct Postal

Service behavioral cost function, :                             →       , relating the levels of services provided

and the resulting amount of costs incurred. In what follows, I will assume that the factor prices




5
    More formally, let the vectors   ∈       and    ∈       , respectively, denote output levels of the various goods and
services offered by the firm and the quantities of the inputs used to produce them and let          ∈      denote the vector
of positive input prices facing the firm. Then, the solution to the firm’s cost minimization problem defines the
minimum cost function :                  →         as   ,         min       : 	can	be	produced	from	 . See, for
example, the treatments in an advanced microeconomic textbook such as Mas-Colell, Whinston, and Green.


                                                                 3
facing the postal service are exogenously fixed, so that the relationships of interest can be

summarized by the function C(q).


       This cost function is assumed to be defined for any non negative output vector q > 0.

However, it is customary to use a special designation for the costs associated with output vectors

in which one or more output levels are equal to zero. The stand-alone costs of any product set

SN is defined as follows. Given any reference output vector q > 0 in which all n products are

produced in strictly positive quantity, let qS denote that vector whose ith component is equal to

that of the reference vector q for iS and equal to 0 for iS. Thus, q = qS + qN/S, where the set

N/S  {iN | iS} is the complement of S in N. Using this notation, the stand-alone costs of the

product sets S and its complement are given by C(qS) and C(qN/S), respectively.


       Thus far, the Postal Service cost function, C, that I have described is a purely theoretical

construct. Nonetheless, it is a useful, indeed essential, tool for establishing economically

sensible postal pricing policies. In particular, the economic implications of C are contained in a

complete description of how costs change in response to a change in the levels of the services

provided. Economists refer to these cost changes as incremental cost. The incremental cost of

any vector of changes in postal volumes, q = (q1,q2, …, qn), relative to a base vector q is

the increase or decrease in total costs resulting from the specified changes: i.e., IC(q; q) =

C(q+q) – C(q).


       Other familiar cost concepts can be constructed from this definition through artful
choices of the base vector, q, and increment, q. For example, the marginal cost of service i,
MCi(q), results from choosing q = (0, 0, qi, …, 0) and taking the limit of IC/qi as qi goes to
zero. Similarly, the incremental cost of a set of services SN results from setting the base vector
q = qN/S and the increment q = qS. Thus, ICS(q) = C(q) – C(qN/S) = C(qS+qN/S ) – C(qN/S).

                                                  4
3.	Fully	Distributed	Costs		

        It is obvious that the costs incurred in producing the services provided by the Postal

Service (or any other organization) must, somehow, be “fully covered.” This is true even if the

services are provided to its customers without charge. The inputs employed must be paid for,

either by the enterprise itself through the revenues it receives and/or through public subsidy.

Since the Postal Reorganization Act of 1970, the Postal Service has been a government-owned

entity that is required to cover its costs through revenues. This balance between revenues and

costs is one of the defining characteristics of a private enterprise economy. And, the associated

condition of zero economic profits is one of the standard benchmarks of industrial and regulatory

economics.


        However, this close relationship between revenues and costs masks an important

difference between the two quantities. Revenues can be unambiguously distributed over the

individual products of the firm, but costs cannot. The firm’s total revenues can be expressed as

the simple sum of the individual revenues resulting from the sales of each of the firm’s products.

Usually, the revenue associated with each product is just the quantity produced and sold of that

product times its price, pi. That is,




Unfortunately, such simple decompositions are not typically available for multiproduct cost

functions. In general, multiproduct cost functions are neither linear nor additively separable.




                                                 5
           Nonetheless, the desire to “balance” costs and revenues on a product-by-product basis

has led regulators to seek to develop methods to allocate, or fully distribute, the total costs of the

enterprise in order to determine an unambiguous unit cost, ui, for each service with the property

that, at least hypothetically, prices set equal to such unit costs would exactly cover the total costs

of the enterprise: i.e.,



                                                            



Obviously, there are many allocation schemes that are capable of satisfying the above equality.6

Most allocation schemes used by regulatory authorities were developed constructively.7


           To illustrate, suppose the total costs of the enterprise consist of costs that are

unambiguously “caused” by the quantities of individual products as well as fixed costs that are

insensitive to volume. That is,




Then, the cost distribution process involves choosing an allocator function,


                                                f(q) = (f1(q), f2(q), …, fn(q)),

6
    Formally, what is required is to construct a vector valued “unit cost” function, u(q,C), that has as its arguments a
quantity vector q and a cost function, C, such that the sum, over all products, of unit price times quantity exactly
equals total costs. Thus, the problem is to define a mapping u:             →      such that u(q;C(.)) .q = C(q), where
C(.), the set of continuously differentiable functions from        →      .

7
    See Braeutigam (1980) for a thorough discussion and critique of widespread regulatory practice at the time of his
writing.


                                                                6
that distributes the fixed costs over the various products.8 In this case, the fully distributed costs

of service i are given by FDCi(q) = fi(q)F + Ci(q). Then, per unit fully distributed costs are

given by ui(q) = FDCi/qi.



4.	Postal	Service	Costing	(CRA)	

           The Postal Service employs a product costing methodology to generate cost information,

both for internal decision making and to satisfy the cost reporting requirements of the Postal Rate

Commission (PRC). This costing system is referred to as the Cost and Revenue Analysis

(CRA).9


           The CRA models total costs by dividing the incurred expenses of the enterprise into some

number of cost components, j = 1, …, J. The dollar cost present in any component, Cj, is

assumed to be caused by the level of the cost driver, Dj, associated with that activity: i.e., Cj =

Cj(Dj). The level of the cost driver is assumed to be determined by the volumes of individual

mail products; i.e., Dj = Dj(q). Cost drivers are typically defined in such a way that the

functions Dj are linearly homogeneous, so that a proportional increase in all volumes leads to an

increase of driver activity of the same proportion: i.e., Dj(tq) = tDj(q) for any constant t > 0.

Often, the relationship is assumed to be linear, so that Dj(q) = aq = iaiqi for some vector of

product weights a = (a1, …, an). For example, suppose that cubic inches are recognized as the

cost driver for the transportation cost component and that there are two services “letters” and

8
    That is, define :    →     ≡     ∈ 0,1 | ∑      1

9
    See Bradley, Colvin, and Smith (1993) for a detailed description of Postal Service costing methodology, as
reflected in its Cost and Revenue Analysis (CRA) reports. Here, I present only a basic description of the CRA in
order to illustrate the issues at hand.


                                                           7
“parcels.” If each letter occupies al cubic inches and each parcel ap cubic inches, the total

amount of the cubic inches cost driver is given by: Dcube = alql + apqp.


        The CRA analysis begins by determining the proportion of component costs that are

“volume variable” with respect to the level of the cost driver. This is done by multiplying total

component costs by the estimated elasticity, ej, of those costs with respect to component activity:

i.e.,




Next, the volume variable costs of each component are attributed to individual services on the

basis of that service’s share of driver activity. When possible, this share, ij, is determined on

the basis of an estimated elasticity: i.e.,




Then, the total amount of volume variable cost attributed to any product i is determined by

summing over cost components:




Finally, the CRA expresses the volume variable costs attributed to service i on a per unit basis by

dividing VVCi by the volume of service i. That is,


                                                        ∑



                                                  8
The well-known10 outcome of the CRA’s volume variability analysis is the surprising result that

the unit volume variable costs of a service are equal to the marginal cost of that service. As we

shall see, the unit volume variable costs of a service can be used to provide a conservative, but

reasonably accurate measure of the costs of implementing an NSA.



5.	The	Theoretical	Standard	for	Evaluating	NSAs	

           In terms of our theoretical framework, any NSA can be evaluated in terms of the

associated (expected) change in revenues, R, and change in service levels, q. Thus an NSA

generates an increase in net profit for the Postal Service whenever


                             R > IC(q;q) = C(q+q) – C(q)  ICtrue(q).


That is, it does so when the incremental revenues of the NSA are greater than the incremental

costs associated with the forecast change in volume. The cost calculation required here is, in

principle, quite straightforward for it involves relatively small changes in postal operations. In

particular, services are not being added or eliminated. Therefore the incremental cost in the

above equation is “interior” in that it is driven by volume changes expected to result from the

NSA.


           In theory, it is as simple as that. For practical application, it is necessary to relate this

result to estimates based upon the Postal Service’s costing methodologies. An estimate of the

change in cost associated with an NSA can be readily obtained using CRA unit volume variable




10
     See, for example, Bradley, Colvin, and Smith (1993) and Bradley, Colvin and Panzar (1999).


                                                          9
costs. All that is required is to multiply the forecast change in the quantity of each service by the

total marginal cost of that service: i.e.,



                                                  		       	            ∆



Similarly, it is straightforward to construct an FDC – based estimate of NSA costs by

multiplying the vector of quantity changes by the vector of FDC unit costs: i.e.,	


                                                  		       	            ∆



           How do these cost accounting estimates compare to the “true” NSA costs that, ideally,

should be compared to projected NSA revenues? For the CRA measure, this is easily

accomplished by means of Figure 1, which is built upon Figure 7 in A Primer on Postal Costing

Issues.11 The diagram reflects the falling marginal costs associated with most postal operations.

At a specified initial output level q0, the level of unit attributable cost is given by MC(q0).

Associated with this point of operation are volume variable costs and institutional costs, as

indicated in the diagram. It is clear that volume variable costs understate the full incremental

costs of the service in question. Bradley, Colvin, and Panzar (1999) explain how these biases

can be systematically dealt with in using Postal Service cost attribution data to test for cross-

subsidization. This suggests the possibility that volume variable costs will typically understate

relevant cost magnitudes.




11
     Office of Inspector General, Risk Analysis and Research Center, A Primer on Postal Costing Issues, Report No.
RARC-WP-12-008, March 20, 2012, p. 21. http://www.uspsoig.gov/foia_files/RARC-WP-12-008.pdf.


                                                          10
                                              Figure 1


       Now consider an NSA with projected increment q+ > 0. The true additional cost of this

increment is given by the area of the trapezoid q0ac(q0+q+). This is the theoretically correct

amount to compare with the R of this NSA. However, as a practical matter assume that the

analyst approximates this cost increase by simply multiplying the increase in volume by the

observed unit attributable cost at the initial volume level. It is clear from the diagram that this

“naïve” use of unit attributable costs would overstate the cost increases due to the NSA by the

area of triangle abc. It follows immediately that any NSA whose R exceeds the naïve cost

estimate will also exceed the “true” added costs of the increased volume. While volume

increases are likely the goal of most NSAs, it is also possible to carry out the argument in

reverse. Suppose an NSA involves a proposed volume change (reduction) of

q- < 0. Then, theoretically, the NSA should be accepted as long as the reduction in revenues




                                                 11
received was no larger than the area of trapezoid q0ade(q0+q-). Use of the naïve attributable

cost estimate would be more conservative by an amount equal to area dae.


       It is not possible to reach any general conclusions regarding the relationship between

ICFDC and ICtrue. This is because there are an infinite variety of possible FDC schemes and, so

far, the only requirement we have placed upon them is the “adding up property” that the sum of

FDC unit costs multiplied by base quantities exactly equals total base costs; i.e., uq = C(q).

However, for any particular increment vector it may be the case that ui is very low precisely

when qi is very high, so that ICFDC is very low. Fortunately, the simple single product example

analyzed above can be used to examine the average properties of an FDC–based NSA cost

measure. This follows from the fact that, with only one product, it must be the case that u = AC.




                                             Figure 2




                                                 12
           Figure 2 augments Figure 1 by adding the average cost curve associated with the

marginal cost curve depicted there.12 Again, consider an NSA with projected increment q+ > 0.

As above, the true additional cost of this increment is given by the area of the trapezoid

q0ac(q0+q+). Because u = AC(q0), we have ICFDC = q+AC(q0), which is the area of the

rectangle q0gh(q0+q+). This estimate overstates ICtrue by the area of the trapezoid aghbc and

also exceeds (the conservative measure) ICCRA by the area of the rectangle aghb.


           These results are very important. They demonstrate that, for cost elasticities less than

one, using CRA–based total marginal cost13 estimates to calculate NSA costs leads to a

conservative overestimate of total costs, therefore, an underestimate of the true net profitability

of undertaking the NSA in question. Any attempt to “inflate” the cost estimates by adding an

FDC–based share of institutional costs can only make the bias more severe. A simple algebraic

example can be used to illustrate the quantitative significance of my analysis.


           The general point can be made using an example involving a single product firm with a

single cost driver. Then, the level of driver activity and output can be measured in the same

units, V. Assume that costs as a function of volume are given by                                 , where A is a

positive constant and e(0,1) is the cost elasticity of the firm’s operations. That is, a 1 percent

increase in volume leads to an e < 1 percent increase in costs. In the context of this example, the




12
     For simplicity, I have assumed that there are no fixed costs. Therefore, the vertical intercepts of the MC and AC
curves are the same and AC remains above MC throughout.

13
     The term “total marginal cost” is used by the Postal Service to refer to the sum (taken over all cost components) of
per unit volume variable costs.


                                                            13
Postal Service’s CRA methodology would lead to a total amount of attributable (volume

variable) costs given by


                               	


Thus, if the cost elasticity were 0.6, the Postal Service would end up attributing 60 percent of its

total costs. Note that, in this single output situation, FDC costing would lead to unit costs

exactly equal to average cost, 	                                              .


           Now suppose that a proposed NSA will generate estimated incremental revenues of R

and increased volumes of V = zV. The “true” cost of the added volume is given by



                        ∆                                                 1           1               1      1



Using the Postal Service’s CRA methodology would produce an estimate of


                                          ∆                                               .


And, of course, using an FDC–based approach would yield an estimate of


                                     ∆             ∆                                           .


           The following tables illustrate the differences between the “true” cost change and the

CRA and FDC estimates of NSA cost changes for plausible parameter values.14 In line with

experience over various cost components, the cost elasticity (and the extent of cost attribution)

ranges from 0.5 to 1.0. On the other hand, the percentage volume increase associated with any

14
     In this constant elasticity example, the FDC value always overstates the CRA value by the factor 1/e.


                                                           14
given NSA is on the order of a few percent. Table 1 plots the ratio of CCRA to Ctrue for various

plausible values of cost elasticity (e) and proportional volume change (z). The result is always

above, but very close to, unity. Thus a CRA–based estimate of cost changes closely

approximates the “true” cost change for all plausible parameter values.


                  e\z        0.01        0.02        0.03        0.04        0.05
                  0.5        1.00        1.00        1.01        1.01        1.01
                  0.6        1.00        1.00        1.01        1.01        1.01
                  0.7        1.00        1.00        1.00        1.01        1.01
                  0.8        1.00        1.00        1.00        1.00        1.00
                  0.9        1.00        1.00        1.00        1.00        1.00
                  1.0        1.00        1.00        1.00        1.00        1.00
                                 Table 1: ratio of ICCRA to ICtrue


In contrast, Table 2, which plots the ratio of CFDC to Ctrue, shows that the use of FDC costing

can lead to serious overestimates of the actual costs of serving an NSA’s additional volume:


                  e\z        0.01        0.02        0.03        0.04        0.05
                  0.5        2.00        2.01        2.01        2.02        2.02
                  0.6        1.67        1.67        1.68        1.68        1.68
                  0.7        1.43        1.43        1.43        1.44        1.44
                  0.8        1.25        1.25        1.25        1.25        1.26
                  0.9        1.11        1.11        1.11        1.11        1.11
                  1.0        1.00        1.00        1.00        1.00        1.00
                                Table 2: ratio of ICFDC to ICtrue


       To conclude, the analysis of this section makes clear that the determination of the net

contribution (profitability) of an NSA is entirely determined by a comparison of its incremental

revenues to its incremental costs. The allocation of the non-volume variable costs of the Postal

Service plays absolutely no role in this determination.




                                                15
6.	Choosing	among	Profitable	NSAs	

           In principle, every NSA that satisfies the criteria of the previous section should be

implemented. However, the above analysis does not take account of either monetary or

opportunity costs associated with implementing an NSA. Monetary costs are easily handled:

simply deduct the monetary implementation costs associated with any particular NSA from the

net contribution calculated above. However, by their very nature, opportunity costs of

implementation are more difficult to incorporate.


           Heuristic (“rule of thumb”) solutions to this type of problem often utilize contribution

hurdles. That is, in order to recognize that implementing NSAs places a burden on the scarce

resource of managerial “attention,” senior management limits consideration to those profitable

NSAs whose net contribution exceeds some threshold X.15 Clearly, the use of such a threshold

will require that an NSA’s projected revenues must exceed its projected incremental costs in


15
     Suppose that each NSA requires an amount y of managerial attention and that a total of amount Y of senior
management time has been allocated to selecting and implementing NSAs. The Postmaster General will know that
he can implement only nNSA = Y/y projects. However, he wishes to design a decentralized process that ensures that
only the nNSA most profitable NSAs are implemented. This can be accomplished using a contribution hurdle, X.
Assume that it is possible to order the net contributions of the universe of potential NSAs from lowest to highest.
Let t[0,1] index the “types” of NSAs with frequency g(t) and let (t)(–,) denote the net contribution of an
NSA of type t. Then the PG’s NSA selection problem is just:


                                 max Π                     				 . .						


Suppose s* solves this problem. Then, the optimal solution (i.e., all NSAs of type t > s* are implemented while the
others are not) can be decentralized by requiring managers to recommend NSA whose net contributions meet or
exceed a threshold contribution level of X = (s*).




                                                          16
order to be implemented. Thus, there is some apparent similarity to a policy that requires NSA’s

projected revenues to exceed their projected fully distributed costs: such a policy also results in

implementation of only NSAs with projected revenues strictly greater than their projected

incremental costs.


       However, the similarity is more apparent than real. As the analysis has revealed, the

choice of the optimal threshold X is based on the availability of the scarce resource (i.e.,

managerial attention) relative to the “richness” of the pool of potential NSAs. The level of the

Postal Service’s institutional costs has nothing to do with this calculation. The following

example will serve to illustrate this important point.


       Suppose there are two potential NSAs under consideration, but the limited availability of

senior management attention means that only one can be implemented. Both NSAs have

positive contributions based upon the incremental cost standard, with the contribution of NSA1

greater than that of NSA2, so that


                           ∆             ∆        ∆              ∆        0


Under what circumstances will the use of FDC costing lead to the choice of the “wrong” NSA?

That is, by finding that


                               ∆             ∆        ∆              ∆


Combining these inequalities, yields the condition


                     ∆               ∆       ∆        ∆              ∆             ∆




                                                 17
Thus, it becomes possible for the “wrong” NSA to be selected when the difference in the fully

distributed costs of the two NSAs is greater than the difference in their respective incremental

costs.


         The simple single product example of the previous section can be used to show how this

situation can easily occur. Recall that there is assumed to be one product and one cost

component with both mail volume and the cost driver measured in the same units at the initial

quantity V. Total costs are given by C(V) = AVe. Two NSAs are under consideration with

forecast revenue increments of ∆       and ∆   . The forecast volume changes associated with the

two NSAs are V1 = z1V and V2 = z2V. Using the results from Section 6 yields:


                                   ∆              ∆


and


                           ∆               ∆       	       1            1


Then, the above conditions that must be satisfied for the “wrong” NSA to be selected using an

FDC costing methodology become:


                            ∆      ∆              1            1


         This result is readily interpreted. Suppose that the forecasted revenue increase is greater

for NSA1 than for NSA2. Then, in order for NSA1 to yield greater incremental profits than NSA2

(as hypothesized), it is necessary that this difference in revenue gains exceed the true difference




                                                  18
in incremental costs between the two proposed NSAs.16 An evaluation using FDC costs would

conclude that NSA2 would be more desirable if, despite the “true” state of affairs, the FDC–

estimated incremental cost disadvantage for NSA1 exceeded its forecasted revenue advantage.

This is more likely to occur: (i) the greater the difference in forecasted revenues and volumes;

and (ii) the smaller the elasticity of costs with respect to volume. Thus, the “larger” the superior

NSA relative to the other, the more likely it is that it will be rejected using an FDC analysis.

Intuitively, this is because there is a cost overestimate on each unit that results from using the

FDC criteria. The more units involved, the more serious the bias and the more likely the inferior

project will be selected.



7.	Conclusions	

           Fully distributed costing has long been discredited as a rate-making methodology. My

analysis has demonstrated that it is also poorly suited to use when evaluating the desirability of

new projects such as NSAs. This result is especially important for the Postal Service, for my

analysis has also demonstrated that the Postal Service costing methodology already in place

provides a reasonable, conservative approximation to the “true” incremental costs of an NSA.


           In many respects, the use of FDC for project evaluation is even worse than it is for rate-

setting. In the rate-setting context (under economies of scale), it is generally recognized that

rates must be “marked up” above marginal cost in order for the firm to break even. The

difficulty is that an FDC process implements these mark-ups inefficiently, without regard to

16
     If R1 is greater than R2 it will presumably be the case that V1 is greater than V2. Thus it will be more costly
to implement NSA1 than NSA2. It is assumed above that the difference in forecasted revenues exceeds this
difference in anticipated costs.


                                                            19
important demand considerations. In contrast, when evaluating an incremental project that is

small relative to the overall size of the enterprise, it is neither necessary nor desirable to mark up

marginal costs at all. They can be used directly to provide an approximate estimate of the costs

associated with implementing the project in question.




                                                  20
                                           REFERENCES


Bradley, Michael, Jeff Colvin, and John Panzar. “On Setting Prices and Testing Cross-Subsidy Using
Accounting Data.” Journal of Regulatory Economics 16 (1999): 83 – 100.

Bradley, Michael, Jeff Colvin, and Mark Smith. “Measuring Product Costs for Ratemaking: The United
States Postal Service.” Regulation and the Nature of Postal and Delivery Services. Eds. M. A. Crew and
P. R. Kleindorfer. Boston: Kluwer Academic Publishers, 1993, pp 133-160.

Braeutigam, Ronald. “An Analysis of Fully Distributed Cost Pricing in Regulated Industries.” Bell
Journal of Economics 11.1 (Spring 1980): 182-196.

Kahn, Alfred. The Economics of Regulation; Volume I: Principles. John Wiley and Sons, New York:
1970.

Mas-Colell, Andreu, Michael Whinston, and Jerry Green, Microeconomic Theory. New York: Oxford
University Press, 1995.

Office of the Inspector General, Risk Analysis and Research Center. A Primer on Postal Costing Issues.
Report No. RARC-WP-12-008. March 20, 2012. http://www.uspsoig.gov/foia_files/RARC-WP-12-
008.pdf.

Viscusi, W. Kip, Joseph Harrington, and John Vernon. Economics of Regulation and Antitrust, 4th Ed.
Cambridge, MA: MIT Press, 2005.




                                                  21
